OIG Investigative Reports, Cedar Rapids, IA., May 16, 2012 - Cedar Rapids Woman Pleads Guilty To Student Loan And Bank Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
NORTHERN DISTRCIT OF IOWA
NEWS
FOR IMMEDIATE RELEASE
May 16, 2012
Contact: Peter Deegan
Cedar Rapids Woman Pleads Guilty To Student Loan And Bank Fraud
A woman who executed a scheme to fraudulently obtain federal student loans and who defrauded a local credit union pled guilty today in federal court in Cedar Rapids.
Brenda Cortez, age 27, from Cedar Rapids, was convicted of one count of financial aid fraud and one count of bank fraud.
At the guilty plea hearing, Cortez admitted that, in about October 2007, she participated in a scheme to fraudulently obtain federal student loan money. Also at the plea hearing, Cortez admitted that, between about May 2009 and November 2010, she defrauded a local credit union. According to an information filed on May 4, 2012, Cortez allegedly defrauded the credit union by concealing payments on accounts receivable of her company, Rightway Enterprises, LLC. The payments had allegedly been pledged as collateral for loans to the business. Rather than deposit the payments at the local credit union as she had allegedly agreed to do, Cortez allegedly cashed the checks at a check cashing establishment and used the funds for her own purposes.
Sentencing before United States District Court Chief Judge Linda R. Reade will be set after a presentence report is prepared. Cortez remains free on bond pending sentencing. Cortez faces a possible maximum sentence of 35 years' imprisonment without the possibility of parole; a fine of up to (a) twice the gross gain resulting from the offenses, (b) twice the gross loss resulting from the offenses, or (c) $1,250,000; a mandatory special assessment of $200; and a term of supervised release of up to 8 years.
The case is being prosecuted by Assistant United States Attorney Peter E. Deegan, Jr. and was investigated by the United States Department of Education and the United States Postal Inspection Service.
Court file information is available at https://ecf.iand.uscourts.gov/cgi-bin/login.pl. The case file number is CR12-32.
Top
Printable view
Last Modified: 07/03/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov